BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, herebycertifythat 1 unbound and
40 copies of the foregoing Brief of Amici Curiae
Professional Association for Customer Engagement
and Noble Systems Corporation in Support of
Petitioner in 19-511, Facebook, Inc. v. Noah Duguid,
individually and on behalf of himself and all others
similarly situated, and United States of America, were
sent via Next Day Service to the U.S. Supreme Court,
and Next Day Service and e-mail service to the
following parties listed below, this 10th day of
September, 2020:
Sergei Lemberg
Lemberg & Associates LLC
43 Danbury Road
Wilton, CT 06897
(203) 653-2250
slemberg@lemberglaw.com
Counsel for Respondent Noah Duguid
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent United States

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioner
Michele A. Shuster
Counsel of Record
Josh Stevens
Mac Murray & Shuster LLP
6525 West Campus Oval
Suite 210
New Albany, OH 43054
(614) 939-9955
mshuster@mslawgroup.com

Counsel for Amicus Curiae
Professional Association for Customer Engagement
Karl H. Koster
Chief Intellectual Property
and Regulatory Counsel
Noble Systems Corporation
1200 Ashwood Parkway
Atlanta, GA 30338
(404) 851-1331
kkoster@noblesystems.com

Counsel for Amicus Curiae
Noble Systems Corporation

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2020.

DonnaJ.
Becker Gallagher e al Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Af:fiant on the date below designated.
Date:

~ ~

./6~

J-A~. 0~

Notary Public

dOefD

·

[seal]

Jr N 0. G LUnHER
r\/o!ary Public, Stat~ or Oh,o
My Commission xpirns
ebrue,y 14, ?023

